©jejiujjmne (ftmirf af
BENNY HERNANDEZ

af JEamskna
No.2020-C-00698

VS.
EXCEL CONTRACTORS, INC.

IN RE: Benny Hernandez - Applicant Plaintiff; Applying For Writ Of Certiorari,
Parish of Ascension, 23rd Judicial District Court Number(s) 113,957, 1st Circuit
Court of Appeal, Number(s) 2019 CA 1058;

September 29, 2020
Writ application denied.
JDH
BJJ
JLW
SJC
JTG
JHB

Crain, J., recused.

/

Supreme Court of Louisiana
September 21L1202CL
l

i

Clerk of Cburt

Secw Deputy For the cdurt

I

STATE OF LOUISIANA
COURT OF APPEAL
FIRST CIRCUIT
201.9 CA 1058
BENNY HERNANDEZ
VERSUS
EXCEL CONTRACTORS, INC.
Judgment Rendered:

MAY 1 1 2020

** * ** **

On Appeal from the 23rd Judicial District Court
In and for the Parish of Ascension
State of Louisiana
Trial Court No. 113,957
Honorable Jessie M. LeBlanc, Judge Presiding
>{; $ sf: $ # >fc >|f

Danial C. Vidrine
Baton Rouge, Louisiana

Attorney for Plaintiff/Appellant,
Benny Hernandez

Robert A. Dunkelman
Joshua P. Monteleone
Shreveport, Louisiana

Attorneys for Defendants/Appellees,
SPX Cooling Technologies, Inc.,
Xcel Erectors, Inc., and James Meidl

s|c sjc * * $ * *

BEFORE: HIGGINBOTHAM, PENZATO, AND LANIER, JJ.
I

)

i

PENZATO, J.
Plaintiff, Benny Hernandez, appeals a trial court judgment granting
summary judgment in favor of defendants, SPX Cooling Technologies, Inc., Excel
Erectors, Inc.1 and James Meidl, dismissing plaintiffs claims with prejudice.
Defendants assert in this court an exception raising the objection of prescription.
For the following reasons, we sustain the exception and dismiss the appeal.
FACTS AND PROCEDURAL HISTORY
Plaintiff has appealed the trial court’s granting of summary judgment in
favor of defendants on two previous occasions.

Both appeals were dismissed

because of this court’s lack of subject matter jurisdiction. See Hernandez v. Excel
Contractors, Inc., 2017-0762 (La. App. 1 Cir. 12/21/17), 2017 WL 6524030
(unpublished) (Hernandez 1), and Hernandez v. Excel Contractors, Inc., 20181091 (La. App. 1 Cir. 3/13/19), 275 So. 3d 278 (Hernandez 2). The relevant facts
from Hernandez 2 are set forth below.
Plaintiff instituted this suit on September 16, 2015 by filing a petition
for damages against Excel Contractors, Inc.2 as well as its insurer,
alleging that plaintiff was employed by ASAP Employment Services,
Inc. and that he was injured on September 16, 2014 while working at
a “CF1 Industries plant.” Plaintiff later filed an amended and
supplemental petition, which named SPX Cooling Technologies, Inc.,
Xcel Erectors, Inc., CF Industries, Inc., and James Meidl as
defendants.3 In response to the amended and supplemental petition,
SPX Cooling Technologies, Inc., Xcel Erectors, Inc., and James Meidl
(“defendants”) filed a “Peremptory Exception for [sic] No Cause of
Action, and in the Alternative, Motion for Summary Judgment,”
which sought dismissal, with prejudice, of all claims against
defendants. On February 22, 2017, the trial court rendered judgment
(hereinafter, the “2017 judgment”), which, in pertinent part, granted
the motion for summary judgment filed by SPX Cooling
Technologies, Inc., Excel Erectors, Inc., and James Meidl and
1 Although the pleadings and transcript identified the defendant as “Xcel Erectors, Inc.,” the
judgment referred to Xcel Erectors, Inc. as “Excel Erectors, Inc.”
2 Excel Contractors, Inc. answered the petition and then filed a motion for summary judgment,
which was granted on July 8, 2016, as it established that none of Excel Contractors, Inc.’s
employees could have been responsible for plaintiff s injuries.
3 As noted in this court’s prior opinions, plaintiffs amended petition mistakenly identified James
Meidl as “James Merrill” and CF Industries Nitrogen, LLC as “CF Industries, Inc.”

2

dismissed Hernandez’s claims against these defendants with prejudice
and at plaintiffs [szc] costs. The judgment further decreed that the
Exception of No Cause of Action was moot as to the statutory
employee issue, but was sustained, however, as to plaintiff’s claims
for intentional torts. The judgment further ordered plaintiff to amend
his pleadings within thirty days of the signing of the judgment “to
sufficiently plead any intentional torts if he so chooses.”
Plaintiff appealed the 2017 judgment, but this court eventually
dismissed the appeal because no porfion of th,n 2017 judgment was.a
final judgment for the purpose of immediate appeal. ...
While the appeal of the 2017 judgment was pending with this court,
however, defendants filed a Motion to Dismiss the intentional tort
claims of Mr. Hernandez in the trial court on August 22, 2017, which
the trial court granted. In the Motion to Dismiss, defendants averred
that, despite the signing of an order of appeal from the 2017 judgment,
the trial court retained jurisdiction over the intentional tort claims
pursuant, to LSA-C.C.P. art. 1915. Despite the pending appeal of the
2017 judgment, defendants contended that plaintiffs [sic] failure to
comply with the trial court’s 2017 judgment, which ordered plaintiff
to amend his pleadings to sufficiently allege intentional tort claims
within thirty days of tire signing of the 2017 judgment, necessitated
the dismissal of plaintiffs [sic] intentional tort claims. Apparently
finding merit to the defendants’ contention, on August 29, 2017, the
trial court signed an order of dismissal, which stated as follows:
CONSIDERING THE FOREGOING, IT IS HEREBY
ORDERED that, pursuant to La. CCP art 934,
Defendants’ Motion to Dismiss is hereby GRANTED as
to the intentional tort claims of Plaintiff, BENNY
HERNANDEZ, against Defendants, SPX COOLING
TECHNOLOGIES, INC., XCEL ERECTORS, INC. and
JAMES MEIDL, and those intentional tort claims shall
be dismissed with prejudice, at Plaintiffs cost.
Four months later, on December 21, 2017, this court rendered its
opinion in the then-pending appeal of the 2017 judgment, dismissing
the appeal for lack of appellate jurisdiction.
After this court’s dismissal of the 2017 appeal, plaintiff circulated and
filed an “Amended Final Judgment” in an attempt to cure the defects
in the 2017 judgment noted by this court.. Notwithstanding
defendants’ opposition to the fifing of the “Amended Final
Judgment," the trial court signed the judgment as submitted by
plaintiff on April. 18, 2018. The “Amended Final Judgment” was
substantively identical to the previous judgment, with the exception
that it included the following designation at the end of the judgment:
“IT IS FURTHER ORDERED, ADJUDGED AND DECREED
that this Judgment is a Final Judgment in accordance with LSAC.C.P. arts 1915(A)(3) and 1915(B)(1) for the purposes of an
immediate appeal and that there is ‘no just reason for delay.’ ”
However, the “Amended Final judgment” retained the provision
3

j

allowing plaintiff thirty days to amend his pleadings to allege
intentional torts, despite the fact that the trial court had previously
dismissed plaintiffs intentional tort claims.
Hernandez 2, 275 So. 3d at 280-82.
In Hernandez 2, plaintiff appealed the “Amended Final Judgment.” This
court found that the trial court was divested of jurisdiction and did not have the
authority to render the August 29, 2017 order dismissing the intentional tort claims
(for failure to amend as previously ordered by the judgment under review by this
court) while the 2017 appeal was pending. Hernandez 2, 275 So. 3d at 285. This
court concluded that the order was a nullity and proceeded as if the order
dismissing the intentional tort claims had never been rendered. Id. Because the
plaintiffs intentional tort claims against the defendants were still pending and
viable (in addition to an exception of prescription raised by defendants on appeal),
this court was unable to state that there was no just reason for delay in the appeal
of that portion of the “Amended Final Judgment” partially granting defendants’
motion for summary judgment.

Thus, this court found that the trial court

incorrectly certified that portion of the judgment as final and immediately
appealable. Id. at 286. This court further found that the portion of the judgment
sustaining the exception of no cause of action and granting leave to amend likewise
was improperly designated as final. Id. at 287. Accordingly, this court concluded
that because the “Amended Final Judgment” was improperly designated as final in
its entirety, this court lacked subject matter jurisdiction and dismissed the 2019
appeal.
Following Hernandez 2, defendants again filed a motion in the trial court to
dismiss plaintiffs intentional tort claims for his failure to amend his pleadings as
previously ordered by the February 22, 2017 judgment. Defendants’ motion was
granted by the trial court on March 25, 2019. Thereafter, a “Second Amended
Final Judgment” was signed on May 1, 2019. The May 1, 2019 judgment granted
4

[

)

defendants’ motion for summary judgment and dismissed plaintiffs claims against
them. The judgment further ordered that the exception of no cause of action was
moot as to the statutory employee issue.
following designation:

Finally, the judgment included the

“IT IS FURTHER ORDERED, ADJUDGED AND

DECREED, that this Judgment is a final judgment in accordance with the
provision of LSA-C.C.P. Arts 1915(A)(3) and 1915(B)(1) for the purpose of an
immediate appeal and that there is ‘no just reason for delay.

f if

Plaintiff now appeals the May 1, 2019 judgment, asserting the trial court
erred in finding that the service agreement between ASAP and SPXCT was a
“contract” and that he was a “statutory” employee within the meaning of La. R.S.
23:1032, and in not allowing him to conduct “adequate” discovery.
LAW AND DISCUSSION
In response to the pending appeal, defendants filed a peremptory exception
raising the objection of prescription wife this court, contending that plaintiffs
claims against them are prescribed on the face of the amended petition as they
were asserted more than one year after the date of the accident and the original
petition filed against Excel Contractors, Inc. did not interrupt the prescriptive
period. Defendants previously filed (for the first time) a peremptory exception
with this court raising the objection of prescription in connection with Hernandez
2. Hernandez 2, 275 So. 3d at 282. However, because this court found in
Hernandez 2 that it lacked appellate jurisdiction, it pretermitted defendants’
exception raising the objection of prescription. Id., Because the May 1, 2019
judgment that is the subject of this appeal is a final, appealable judgment, we
address the exception prior to the merits of the appeal.
Louisiana Code of Civil Procedure article 2163 allows the appellate court to
consider a peremptory exception filed for the first time on appeal when the
exception is pleaded prior to submission of the case for decision and proof of the
5

f

ground of the exception appears in the record. While the plaintiff may demand a
remand to the trial court for a trial of the exception when the exception pled in the
appellate court is prescription, we note, as did this court in Hernandez 2, that
plaintiff did not do so. See Hernandez 2, 275 So. 3d at 282, n.4. Thus, this court
has the discretion to consider the peremptory exception of prescription in this
matter. Id.
Delictual actions are subject to a liberative prescription of one year, which
commences to run from the day injury or damage is sustained. La. C.C. art. 3492.
Prescription is interrupted by the commencement of suit against the obligor in a
court of competent jurisdiction and venue. La. C.C. art. 3462. The interruption of
prescription by suit against one solidary obligor is effective as to all solidary
obligors. La. C.C. arts. 1799 and 3503. A timely filed suit against one joint
tortfeasor interrupts prescription as to the remaining joint tortfeasors. La. C.C. art.
2324(C). However a suit timely fried ggainst- one- defendant does not interrupt
prescription as against other defendants not timely sued, where the timely sued
defendant is ultimately found not liable to plaintiff, since no joint or solidary
obligation would exist. Renfroe v. State Dept, of Transportation and Development,
2001-1646 (La. 2/26/02), 809 So. 2d 947, 950.
The record indicates that plaintiff filed this suit against Excel Contractors,
Inc. on September 16, 2015, for injuries he allegedly sustained as the result of a
September 16, 2014 accident. The timely sued defendant, Excel Contractors, Inc.,
was dismissed by a judgment signed on July 8, 2016. Plaintiff did not file his
amended and supplemental petition agahiifc defendants until May 13, 2016, more
than one year from the date of the alleged September 16, 2014 injury. His earlier
filing against Excel Contractors, Inc., which was found to have no liability to
plaintiff, did not interrupt the prescriptive period as to these defendants. See
Renfroe, 809 So. 2d at 950. Because the record contains sufficient evidence that
6

(

I

plaintiff did not timely file suit against defendants, and plaintiff did not demand
that the case be remanded to the trial court for trial of die exception, as provided in
La. C.C.P. art. 2163, we sustain defendants’ exception of prescription.
Accordingly, we pretermit consideration of the merits of this appeal.
CONCLUSION
For these reasons, the exception raising the objection of prescription filed by
SPX Cooling Technologies, Inc., Excel Erectors, Inc. and James Meidl in this court
is sustained, and the appeal and claims of Benny Hernandez against them are
dismissed with prejudice. Costs are assessed to plaintiff, Benny Hernandez.
PEREMPTORY EXCEPTION RAISING THE OBJECTION
PRESCRIPTION SUSTAINED; APPEAL DISMISSED.

7

OF

06/04/19 SCANNED JILL

BENNY HERNANDEZ RECEIVED AND FILED
NUMBER: 113,957
DIVISION “D”
BRIDGET HANNA
CLERK OF COURT
23rd JUDICIAL DISTRICT COURT
VERSUS
2019 KAY 2 9 i ll; U8 PARISH OF YTTWION
EXCEL CONTRACTORS

Bled

ITATEOFLi

i..* KLCORCER

****************

************* :********«
MOTION FOR APPEAL

*****

By.

********4*

^•

mta

I

NOW INTO COURT, through undersigned counsel, coi
Who respectfully moves this Court to allow them Plaintiff to take a Suspensive app^toTthT'
Second Amended Final Judgment rendered by this Court on the 1st day of May, 2019.
ORDER
IT IS ORDERED, Plaintiff, Benny Hernandez, is hereby allowed to take a Suspensive
appeal from the Second Amended Final Judgment rendered by this Court on the 1st day of May,
2019.

/YjPol'ecrwi lie,
1 Gouzalus-, Louisiana, this

JUD

aifL

day of May, 2019.

23rd JUDICIAtfDISTRICT COURT

Judge Jessie M. LeBlanc
Division D, 23rd Judicial District Court

Respectfully Submitted,
Dafiial C. Vidrine, LLC

(ikhkQ^\L^j<r
DaniaTC. Vidrine, Bar Roll # 17844
12445 Parkvilla Ave.
Baton Rouge, La. 70816
Telephone (225) 752-4520
Fax 9225) 752-4521
Attorney for Plaintiff,
Benny Hernandez

CERTIFICATE OF SERVICE
I hereby certify that on this 24th day of May, 2019, a copy of the above and foregoing
pleading has been forwarded to counsel for all parties to this proceedings by electronic mail.

.

J DANIAL
m¥/. C. VIDRIN£

03/27/19 scanned

AS

Arc - FILED
i HAMA
. L'LVCOURT

FAX FILED

i'iilS 1!aR 20 A 11*21

MAR 14 m
* ASCENSION PARISH

Ft

ASCElSIlN t'LiLfl.LA.

^

BENNY HERNANDEZ

CASE NO. 113,957-D

VS.

23rd JUDICIAL DISTRICT

EXCEL CONTRACTORS, INC.

ASCENSION PARISH, LOUISIANA
ORDER OF DISMISSAL

CONSIDERING THE FOREGOING, IT IS HEREBY ORDERED that, pursuant to La.
CCP art 934, Defendants’ Motion to Dismiss is hereby GRANTED as to the intentional tort claims
of Plaintiff, BENNY HERNANDEZ, against Defendants, SPX COOLING TECHNOLOGIES,
INC., XCEL ERECTORS, INC. and JAMES MEIDL, and those intentional tort claims shall be
dismissed with prejudice, at Plaintiffs cost.

Thus done and signed at
the

ffidlvof

U~iU<- .AflCENUtOW T7UUJ H LOUISIANA, this

J 2019.

PLEASE SERVE:
BENNY HERNANDEZ
Through his Attorney of Record
Danial C. Vidrine, LLC
12445 Parkvilla Ave.
Baton Rouge, LA 70816
CF INDUSTRIES, INC.
Through its Attorneys of Record
J. Alan Harrell
Benjamin M. Anderson
John B. Shortess
II City Plaza
400 Convention Street, Suite 1100
Baton Rouge, LA 70802-5618

4

BF
F.^CEIVEO A HD FILED
BRIDGET HAfli'A
23rd JUDICIAL DISTRICT COURT FOR THE PARISlfOF ASCENSION
STATE OF LOUISIANA

2013 KAY 15 P 12= l~i

3Y 2-----

NO. 113,957
BENNY HERNANDEZ

rassir

VS.
EXCEL CONTRACTORS, ET AL
a********************************************************************************

MOTION FOR APPEAL
a********************************************************************************

NOW INTO COURT, through undersigned counsel, comes Plaintiff, BENNY HERNANDEZ, who
respectfully moves this Court to allow him to take an appeal from the Amended Final Judgment signed by this
Court on the 18th day of April, 2018.
ORDER
IT IS ORDERED, Plaintiff, Benny Hernandez, is hereby allowed to take an appeal from the Amended
Final Judgment signed by this Court on the 18th day of April, 2018.
./] tHVhS/
•
'onzalec, Louisiana, this
1 p
day of May, 2018.

7/ JESSIE M. LEBLANC
JUDGE, DIVISION, “D”
23rd JUDICIAL DISTRICT COURT
Respectfully Submitted:

Danial C. Vidrine, LLC
Bar Roll# 17844
12445 Parkvilla Ave.
Baton Rouge, La. 70816
Telephone (225) 752-4520
Fax 9225) 752-4521
Attorney for Plaintiff, Benny Hernandez
CERTIFICATE OF SERVICE
I hereby certify that on this 15th day of May, 2018, a copy of the above and foregoing pleading has
been forwarded to counsel for all parties to this proceedings by electronic mail.

MAXwClifolujt
V DANIAL C. VIDRINE
V.

Ic

03/29/17 15:44:48 Katy

BENNY HERNANDEZ
VERSUS

HcCFiVtii AKO FILED
NUMBER: 113957 DIVISION "D"
bridgl't hanna
CLERK OF COURT
23rd JUDICIAL DISTRICT COURT

KILKAR21 P 1=51

PARISH OF ASCENSION

S:
D.Y. IllwI, RtCaRDER^-^

EXCEL CONTRACTORS;s Wfc - •< PARISH. LA. STATE OF LOUISIANA
*********************************************** *******************************
MOTION FOR APPEAL
******* *********************************************************************
NOW INTO COURT, through undersigned counsel, comes Plaintiff, BENNY
HERNANDEZ, who respectfully moves this Court to allow him to take an appeal from the Final
Judgment rendered by this Court on the 22nd day of February, 2017.

ORDER
IT IS ORDERED, Plaintiff, BENNY HERNANDEZ, is hereby allowed to take an appeal
from the Final Judgment rendered by this Court on the 22nd day of February, 2017.
vlH
ftri
day of March, 2017.
Gonzales, Louisiana, this

“77 JESSIE M. LEBLANC
{/ JUDGE, DIVISOIN "D"
23rd JUDICIAL DISTRICT COURT
Respectfully Submitted,

Danial C. Vidrine, LLC (LSBA # 17844)
12445 Parkvilla Ave.
Baton Rouge, La. 70816
Telephone (225) 752-4520
Fax 9225) 752-4521
Attorney for Plaintiff, Benny Hernandez
CERTIFICATE OF SERVICE
I hereby certify that on this 27th day of March, 2017, a copy of the above and foregoing
pleading has been forwarded to counsel for all parties to this proceedings by electronic mail.

DANIAL C. VIDRINE

05/20/16 Scanned AS

BENNY HERNANDE%EpFjy?0
i

NUMBER: 113957 DIVISION "D"

FILED

.... T

C~
VERSUS

and

23rd JUDICIAL DISTRICT COURT

ZQlh HAY J 3 PJ2; I I

EXCEL CONTRACTORS,

PARISH OF ASCENSION
STATE OF LOUISIANA

.!

1.

******♦*****»*****♦♦'*’*'***'♦***♦ '***«'*'** ***+*»» if*********************************

MOTION FOR LEAVE OF COURT TO FILE
FIRST AMENDING AND SUPPLEMENTAL PETITION FOR DAMAGES

******************************************************************************
NOW INTO COURT, through undersigned counsel comes Plaintiff, Benny Hernandez,
who respectfully moves this Honorable Court to Grant him Leave of Court to file a First
Amending and Supplemental Petition for Damages.

ORDER
Considering the forgoing Motion;
IT IS ORDERED that the Plaintiff, Benny Hernandez, is hereby GRANTED leave of
Court to file a First Amending and Supplemental Petition for Damages.
I
Gonzales, Louisiana, this
I I
day of May, 2016.

DGE, 23RD JUDICIAL DISTRICT COURT

Judge Jf5&|%ifcil]?§te(}fiitted:
Division D, 23rd Judicial District Court
kkk W C_ l/VKoK K
Danial C. VidrineTLLC (LSBA 17844)
12445 Parkvilla Ave.
Baton Rouge, La. 70816
Telephone: (225) 752-4520
Fax: (225) 752-421
CERTIFICATE OF SERVICE
I hereby certify that on this 11th day of May, 2016, a copy of the above and foregoing
pleading has been forwarded to counsel for all parties to this proceedings by electronic mail.
l

(XkkwJpk/j.A-xJt,
DANIAL C. VIDRINE

RECEIVED
APR - 5 2021

04/27/16 Scanned AS

RECEIVED
CLERKEeFHCO0sV JUDICIAL DISTRICT COURT

BENNY HERNANDEZ
VERSUS NUMBER 113957
EXCEL CONTRACTORS, INC.

DIVj^ jpfl 25 PM2M&H OF ASCENSION
[W '^S3f(T^#t(5uISIANA
ASStife jORDERL A.

CONSIDERING THE ABOVE AND FOREGOING:
IT IS HEREBY ORDERED, that the plaintiff, Benny Hernandez, appear and show cause
on the

dav of QUAVfl-

., 2016 at (j:oO

o’clock a.m. at Gonzales,

Louisiana, why this Motion for Summary Judgment should not be granted and why all claims
against Excel Contractors, Inc., should not be dismissed, with prejudice at his costs.
THUS DONE AND SIGNED this
11 €.(
•Gonzafcg, Louisiana.

Sli

day of

iMNORABLE JESSIE LEBLANC
JUDGE, 23rd JUDICIAL DISTRICT COURT
PLEASE SERVE
Benny Hernandez
Through his attorney of record:
Danial C. Vidrine
12445 Parkvilla Ave.
Baton Rouge, La. 70816
PLEASE NOTIFY
Excel Contractors, Inc.
Through its attorney of record:
Timothy E. Pujol
12320 Highway 44
Building 4, Suite C
Gonzales, Louisiana 70737

, 2016 at

10/16/15 09:00:36 Linda

VERSUS NUMBER 113957 DIVD.

23rd judicial district courts ccc:!r
PARISH OF ascensioIP^FJU3 AH IQ--47

EXCEL CONTRACTORS, INC.

STATE OF LOUISIAN&'^C

■ BEl^NY HERNANDEZ

SOcWSfO^PAiftSH.LA

MOTION AND ORDER FOR EXTENSION OF TIME
On motion of EXCEL CONTRACTORS, INC., defendant herein, and upon suggesting to
the Court through their undersigned counsel of record that an extension of time of fifteen (15)
days be granted through October 23,2015, which is needed within which to answer or otherwise
plead to the allegations of the petition. No previous extensions of time have been obtained by the
adverse party or granted by this Court.
It is hereby ORDERED that the time within which defendant, EXCEL CONTRACTORS,
INC., may answer or otherwise plead to the allegations of the petition be, and it is hereby,
extended through October 23,2015.

He, Louisiana, this i^day

THUS DONE, ORDERED AND SIGNED in
of OcJrh&\. 2015.

l J HONORABLE JESSIE LEBLANC
JUDGE, 23rd JUDICIAL DISTRICT COURT
Respectfully Submitted:
PUJOL, PRYOR & IRWIN, LLC

r
Timothy E. Pujol (#19117)/
Matthew W. Pryor (#23903)l.
Barbara Lane Irwin (#28091)
12320 Highway 44
Building 4, Suite C
Gonzales, Louisiana 70737
Telephone: (225) 644-0607
Facsimile: (225) 644-1688
CERTIFICATE OF SERVICE
I hereby certify that a copy of the above and foregoing pleading was forwarded to all
counsel of record by placing same in the United States Mail, postage prepaid and properly
addressed this Frft' day of (OC\cVv^r . 2015, at Gonzales, LoiKpana.

* X
Timothy E. Pujol

